No. 19In the

Supreme Court of the United States
EDDIE N. DELA CRUZ,
Petitioner,
v.
ROBERT WILKIE, SECRETARY
OF VETERANS AFFAIRS,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Seth A. Watkins
Counsel of Record
Watkins Law & A dvocacy, PLLC
1455 Pennsylvania Avenue, NW,
Suite 400
Washington, DC 20004
(202) 355-9421
watkins@wlapllc.com
Louis S. Mastriani
A dduci, Mastriani
& Schaumberg LLP
1133 Connecticut Avenue, NW
Washington, DC 20036
Of Counsel
Counsel for Petitioner
Date: December 19, 2019
291966

i
QUESTION PRESENTED
Over the last decade since Congress passed remedial
legislation creating Filipino Veterans Equity Compensation
(“FVEC”), an astronomical fifty-six percent (56%) of all
claimants have been denied that one-time benefit by the
Department of Veterans Affairs (“VA”). This notorious
failure to effectuate Section 1002, American Recovery and
Reinvestment Act of 2009 (“ARRA”), has been the subject
of an inter-agency task force convened by the White
House, two hearings before the House of Representatives,
and now a Federal Circuit opinion.
Below, the parties disputed the plain language in
Section 1002 establishing “eligible persons” to receive the
FVEC benefit. The Federal Circuit held that the VA could
by-pass express eligibility criteria in the statute in favor of
a “service” determination by the United States Army that
would be “conclusive and binding on the VA” irrespective of
the benefit’s remedial nature and “regardless of whatever
other evidence documenting service the claimant provides
to the VA.” According to the court of appeals, the VA need
not make any independent assessment of FVEC eligibility.
The question presented is:
Whether the Federal Circuit has erred in its narrow
construction of ARRA Section 1002—a remedial veteran’s
statute providing a benefit for Filipinos who were “call[ed]
and order[ed] into the service of the armed forces of
the United States” during WWII—by not following the
pro-veteran canon requiring that the Act be “liberally
construed for the benefit of those who left private life to
serve their country in its hour of great need.”

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner is Eddie N. Dela Cruz. Respondent is
Robert Wilkie, Secretary of Veterans Affairs. No party
is a corporation.

iii
STATEMENT OF RELATED CASES
Pursuant to SCR 14.1(b)(iii), all proceedings in the
lower courts directly related to this case are
• Eddie N. Dela Cruz v. Robert Wilkie, No. 2018-2101
(Fed. Cir.) (judgment dated July 26, 2019);
• Eddie N. Dela Cruz v. David J. Shulkin, M.D., No.
17-1020 (CAVC) (judgment dated May 25, 2018); and
• Eddie N. DelaCruz v. Robert A. McDonald, No.
13-1157 (CAVC) (remand and mandate, without
judgment, on October 24, 2014).

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
The Rescission Acts of 1946 . . . . . . . . . . . . . . . . . . . . . 3
The Reconstructed Rosters of Guerrillas Who
Served . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The FVEC Benefit . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The White House Task Force in 2012-13 . . . . . . . . . . 7

v
Table of Contents
Page
Hearings in the House of Representatives in 2014 . . 8
Dela Cruz Was Denied Eligibility for the FVEC
Benefit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
The Federal Circuit Opinion . . . . . . . . . . . . . . . . . . . 12
REASONS FOR GRANTING THE PETITION . . . . 14
I.

T H E F E DE R A L C I R C U I T H A S
DEPARTED FROM THIS COURT’S
PR ECEDEN T S C ONS T RU I NG
VETERAN’S STATUTES . . . . . . . . . . . . . . . . .  17

II. THIS CASE IS A GOOD VEHICLE
FOR RESOLVING THE QUESTION
PRESENTED  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
JULY 26, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
VETERANS CLAIMS, DATED MAY 3, 2018 . . . 22a
APPENDIX C — MEMORANDUM DECISION
OF THE UNITED STATES COURT OF
A PPEA LS FOR V ETERA NS CLA IMS,
DATED MARCH 16, 2018 . . . . . . . . . . . . . . . . . . . . 24a
A PPEN DI X D — DECI SION OF T H E
BOA R D OF V ET ER A NS ’ A PPE A L S ,
DEPARTMENT OF VETERANS AFFAIRS,
DATED FEBRUARY 7, 2017 . . . . . . . . . . . . . . . . . . 33a
A P P E N DI X E — O R D E R D E N Y I N G
REHEA RING BY THE U NIT ED
STAT ES COU RT OF A PPEA LS FOR
T H E F E DE R A L C I R C U I T, F I L E D
SEPTEMBER 20, 2019 . . . . . . . . . . . . . . . . . . . . . . . 43a
APPENDIX F — AMERICAN RECOVERY
AND REINVESTMENT ACT OF 2009 § 1002 . . 45a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Alabama Power Co. v. Davis,
431 U.S. 581 (1977)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Almero v. INS,
18 F.3d 757 (9th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 5
Boone v. Lightner,
319 U.S. 561 (1943)  . . . . . . . . . . . . . . . . . . .  2, 14, 17, 18
Brown v. Gardner,
513 U.S. 115 (1994) . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
Cloer v. Sec’y of HHS,
675 F.3d 1358 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . . 20
Coffy v. Republic Steel Corp.,
447 U.S. 191 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Cronin v. United States,
765 F.3d 1331 (Fed. Cir. 2014) . . . . . . . . . . . . . . . . . . 18
Filipino American Veterans and Dependents
Ass’n v. United States,
391 F. Supp. 1314 (N.D. Cal. 1974) . . . . . . . . . . . . . . . . 3
Fishgold v. Sullivan Drydock & Repair Corp.,
328 U.S. 275 (1946)  . . . . . . . . . . . . . . . . . .  16, 17, 18, 19
Henderson v. Shinseki,
562 U.S. 428 (2011)  . . . . . . . . . . . . . . . . . . . . .  14, 18, 19

viii
Cited Authorities
Page
Henderson v. Shinseki,
589 F.3d 1201 (Fed. Cir. 2009) . . . . . . . . . . . . . . . . . . 18
King v. St. Vincent’s Hosp.,
502 U.S. 215 (1991)  . . . . . . . . . . . . . . . . . . . . . . . .  17, 19
Kisor v. Shulkin,
880 F.3d 1378 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . 18
Le Maistre v. Leffers,
333 U.S. 1 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Procopio v. Wilkie,
913 F.3d 1371, 1380 (Fed. Cir. 2019) . . . . . . . . . . . . . 15
Smith v. Brown,
35 F.3d 1516 (Fed. Cir. 1994) . . . . . . . . . . . . . . . . . . . 20
Tcherepnin v. Knight,
389 U.S. 332 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
STATUTES AND OTHER AUTHORITIES
5 U.S.C. § 702  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
5 U.S.C. § 704  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
38 U.S.C. § 107(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

ix
Cited Authorities
Page
38 U.S.C. § 107(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
38 C.F.R. § 3.203 . . . . . . . . . . . . . . . . . . . . . . . . . .  16, 17, 20
38 C.F.R. § 3.203(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
38 C.F.R. § 3.203(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
38 C.F.R. § 3.203(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
6 Fed. Reg. 3825 (Aug. 1, 1941) . . . . . . . . . . . . . . . . . . . . . 3
ARRA § 1002 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
ARRA § 1002(c)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 15
ARRA § 1002(d)  . . . . . . . . . . . . . . . . . . . . . . . . 6, 14, 16, 20
ARRA § 1002(e)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
ARRA § 1002(f)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
ARRA § 1002(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
ARRA § 1002(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
ARRA § 1002(l) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
D epa rt m en t of Vet er a ns A f fair s A genc y
	Financial Report 2019 (Nov. 19, 2019)  . . . . . . . . . . . 2

x
Cited Authorities
Page
Executive Order No. 21 by the President of
the Philippines (Oct. 28, 1944) . . . . . . . . . . . . . . . . . . . 2
Filipino Veterans Equity Compensation Fund:
E x amining the D epa rt ment of D efense
a nd I nter agency P rocess for Verif y ing
Eligibility, Hearing Before the Subcommittee
on O versight and Investigations of the
Committee on Armed Services, House of
Representatives (June 24, 2014)  . . . . . . . . . . . . . . . . . 8
F ilipi no V e t er a n s E qu i t y C o mp en sa t ion
F u n d : I n q u i r y i n t o t h e A d e q ua c y o f
P rocess in Verifying Eligibility, Hearing
Before the Subcommittee on Disability
Assistance and Memorial A ffairs of the
Committee on Veterans’ Affairs, House of
Representatives (Nov. 20, 2014) . . . . . . . . . . . . . . . . . . 9
Oral Arg., Dela Cruz, v. Wilkie, No. 2018-2101
(Fed. Cir.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Pub. L. No. 104-204, 110 Stat. 2874 (1996)  . . . . . . . . . . 19
Pub. L. No. 111-5, 123 Stat. 115 (2009)  . . . . . . . . . . . . . . 1
Pub. L. No. 79-301, 60 Stat. 6 (1946)  . . . . . . . . . . . . . . . . 3
Pub. L. No. 79-391, 60 Stat. 221 (1946)  . . . . . . . . . . . . . . 3
U.S. A rmy Recognition Program of Philippine
G u er r illas , Headquar ters, Philippines
Command, United States Army (ca. 1949) . . . . . . . 3-4

1
Petitioner Eddie N. Dela Cruz (“Dela Cruz”)
respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Federal Circuit entered in this action on July 26, 2019.
OPINIONS BELOW
The opinion of the Court of Appeals for the Federal
Circuit, dated July 26, 2019, is set forth in the Appendix
(“App.”) at 1a-21a. A panel Order of the Court of Appeals
for Veterans Claims on rehearing, dated May 3, 2018, is
set forth at 22a-23a. The Memorandum Decision of the
Court of Appeals for Veterans Claims dated March 16,
2018 is set forth at 24a-32a. The underlying decision of the
Board of Veterans’ Appeals dated February 7, 2017 is set
forth at 33a-42a. The Order of the Court of Appeals for
the Federal Circuit denying rehearing, dated September
20, 2019, is set forth at 43a-44a.
JURISDICTION
The judgment of the court of appeals was entered
on July 26, 2019. A petition for rehearing was denied
on September 20, 2019. App. at 43a-44a. This Court’s
jurisdiction is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
Section 1002 of ARRA, Pub. L. No. 111−5, 123 Stat.
115, 200-02 (2009), is set forth in the Appendix at 45a-51a.

2
STATEMENT OF THE CASE
This case raises a question of broad and general
importance to veterans: when must the pro-veteran canon
of statutory construction be applied to veterans’ benefits
statutes? The answer to this question affects all of the
20 million veterans whose benefit claims are subject to
administrative “adjudication” by the VA, with its annual
budget exceeding $200 billion.1
This Court gave life to the pro-veteran canon during
World War II. Boone v. Lightner, 319 U.S. 561, 575 (1943).
That time in history precisely intersects the service of
the Filipino benefit claimants impacted by this case. The
Philippines was a territory of the United States during
the war, and Filipinos who were deemed to be “on active
service in the Philippine Army”2 were “call[ed] and
order[ed] into the service of the armed forces of the United
States” by President Franklin D. Roosevelt. Military
1. Department of Veterans A ffairs Agency Financial
Report 2019 (Nov. 19, 2019), at 179 (“For FY 2019, VA [] operat[ed]
under a $201.1 billion budget . . . serving an estimated 19.6
million Veterans.”), available at https://www.va.gov/finance/docs/
afr/2019VAafrFullWeb.pdf.
2. On October 28, 1944, Philippine President Osmeña
issued Executive Order No. 21 designating “[a]ll persons
. . . who are actively serving in recognized military forces in the
Philippines . . . to be on active service in the Philippine Army.”
See Executive Order No. 21 by the President of the Philippines
(Oct. 28, 1944), available at https://www.officialgazette.gov.
ph/downloads/1944/10oct/19441028-EO-0021-OSMENA.pdf.
A “recognized military force” was defined as “a force under a
commander who has been appointed, designated or recognized by
the Commander-in-Chief Southwest Pacific Area [(“SWPA”)].” Id.

3
Order of July 26, 1941, 6 Fed. Reg. 3825 (Aug. 1, 1941).
For those who survived the Japanese invasion and the
accompanying atrocities, their victory in some aspects
was bittersweet.
The Rescission Acts of 1946
Filipinos who served in WWII experienced a notorious
“bait and switch.” First, they were told by the VA that
they were in “active service” for the purposes of veterans’
benefits. Filipino American Veterans and Dependents
Ass’n v. United States, 391 F. Supp. 1314, 1317-18 (N.D.
Cal. 1974), citing Hearings Before the Subcommittee of
the Senate Committee on Appropriations, 79th Congress,
2d Session, “Attachment” to Agreed Statement herein, pp.
56-57. But then Congress passed the First Supplemental
Surplus Appropriation Rescission Act, 1946, Pub. L.
No. 79-301, 60 Stat. 6, 14 (1946) which appropriated
$200,000,000 to the Army of the Philippines but stripped
Filipino guerrillas of U.S. veteran’s benefits. Philippine
Scouts were similarly disenfranchised by the Second
Supplemental Surplus Appropriation Rescission Act,
1946, Pub. L. No. 79-391, 60 Stat. 221, 223 (1946). Now
codified at 38 U.S.C. § 107(a) & (b), the Rescission Acts
substantially reduced the available benefits, and amounts
paid, to such Filipinos.
The Reconstructed Rosters of Guerrillas Who Served
Among the Filipinos who fought against the Japanese
were “guerrillas,” who together formed a large, shadow
army that played an important role in the Philippines
during the war. U.S. A rmy Recognition P rogram of
P hilippine G uerrillas , Headquarters, Philippines

4
Command, United States Army (ca. 1949) (“1949 Army
Report”). 3 Unfortunately, original guerrilla rosters, which
had been submitted to the U.S. Army, were “destroyed”
or “lost in storage.” Id. at 108-09, 162. And so the Army
undertook a program to “reconstruct” the rosters to
newly “award . . . official guerrilla recognition” to those
deemed to have “contributed materially to the defeat of
the common foe.” Id. at Foreword, 161.
Recognition of guerrillas “was constantly hindered []
[] by chaotic conditions incident to a total war . . . Under
the most favorable reception the granting of guerrilla
recognition to deserving Filipinos would have been
extremely difficult to accomplish and hold the degree
of error and injustice to an absolute nuance.” Id. at 214.
Claims for guerrilla recognition also were complicated
by “chaotic personnel problems experienced by an army
undergoing the process of rapid demobilization” Id. at
Foreword.
Injustices accompanied the Army’s recognition
program. For example, “when it was determined that
the unit was worthy of recognition, the unit commander
was directed to ‘screen’ his unit down in numbers . . . The
reasoning behind screening was that the unit would . . . be
incorporated into the Philippine Army as a standard
unit (as differentiated from a non-standard or guerrilla
unit).” Id. at 108. And the degree of arbitrariness of the
recognition process is readily apparent from another
decision that “excepting [registered] nurses, no women
should be recognized.” Id. at 106.
3. The 1949 Army Report is available at https://catalog.
archives.gov/id/6921767.

5
That a guerrilla might only have been recognized on
a reconstructed roster by “chance” is further amplified
by testimony from an American hero of WWII:
. . . Lieutenant Colonel Edwin P. Ramsey, []
commanded over 40,000 guerrilla troops in
the northern Philippines during World War
II. . . . Ramsey stated that his command
stopped keeping accurate rosters or lists when
some of the rosters fell into enemy hands, and
many of those named were executed. Colonel
Ramsey testified that he participated in the
reconstruction of the lists after the war, but that
nearly half of the Filipinos who served under
his command, including some who served on his
staff, were shortly thereafter “derecognized”
by the Army for political reasons and their
records eliminated.
Almero v. INS, 18 F.3d 757, 759 (9th Cir. 1994).
The incompleteness of the reconstructed rosters is
clear.
The FVEC Benefit
In 2009, over half a century after their war time
service, the stars momentarily came into alignment
for Filipinos who served during WWII. Deep within a
407-page supplemental appropriations bill, an allocation
of “$198,000,000, to remain available until expended”
was authorized for one-time remedial payments to each
“eligible person” who served in the Philippines during
WWII, in exchange for “a complete release of any claim

6
against the United States by reason of any service” on
which eligibility was based. See App. at 49a-51a, ARRA
§ 1002(h) & (l). Eligible persons who are not U.S. citizens
receive a one-time payment of $9,000 while those who are
U.S. citizens receive $15,000. Id. at 48a, ARRA §§ 1002(e)
& (f). FVEC claims had to be submitted to the VA within
one-year of enactment of the Act providing the benefit.
Id. at 47a, ARRA § 1002(c)(1).
ARRA § 1002(d) specifically defines “eligible persons”
for receiving the equity compensation:
(d) ELIGIBLE PERSONS.—An eligible person
is any person who—
(1) served—
(A) before July 1, 1946, in the
organized military forces of the
Government of the Commonwealth of
the Philippines, while such forces were
in the service of the Armed Forces
of the United States pursuant to the
military order of the President dated
July 26, 1941, including among such
military forces organized guerrilla
forces under commanders appointed,
desig nat ed, or subsequently
recognized by the Commander in
Chief, Southwest Pacific Area, or
other competent authority in the
Army of the United States; or

7
(B) in the Philippine Scouts
under section 14 of the Armed Forces
Voluntary Recruitment Act of 1945 (59
Stat. 538); and
(2) was discharged or released from
ser v ice descr ibed in pa rag raph
(1) under conditions other than
dishonorable.
App. at 47a-48a.
In creating the FVEC benefit, Congress finally
recognized, in ARRA § 1002(g)(1), the “human suffering”
associated with not only Filipinos’ service and sacrifice
during WWII but also the indignity many faced in
having to live for the vast majority of their lives bearing
the disrespect of having their service rendered largely
invisible either by the failures of the recognition program
or by the Rescission Acts of 1946. App. 48a-49a.
The White House Task Force in 2012-13
Because “many Filipino veterans . . . believe[d] their
[FVEC] claims were improperly denied,” an Interagency
Working Group—including Army, the National Archives
and Records Administration (“NARA”), and VA—was
convened by the White House from 2012-13.4 Release of
4. See https://obamawhitehouse.archives.gov/blog/2012/10/17/
honoring-filipino-world-war-ii-veterans-their-service (Oct. 17, 2012);
https://obamawhitehouse.archives.gov/blog/2013/07/09/recognizingextraordinary-contribution-filipino-veterans (July 9, 2013); https://
sites.ed.gov/aapi/filipino-world-war-ii-veterans/.

8
the 1949 Army Report was one of its accomplishments
aimed at “increased transparency.”5 But the process for
making service determinations for claimants was not
materially changed.
Hearings in the House of Representatives in 2014
Concerns about the improper denial of FVEC
claims in part focused on claimants for whom a so-called
“Form 23 Affidavit” was located in Army’s records,
but whose names were not listed on the reconstructed
rosters. The significance of the Form 23 Affidavits with
respect to FVEC eligibility indeed was the subject
of two Congressional hearings in 2014. During a first
hearing before the Subcommittee on Oversight and
Investigations of the Committee on Armed Services,
House of Representatives, Congressman Heck, the
chairman of the subcommittee stated:6
I understand the record keeping, and I
understand everything that was tried to be done
back in 1942 to 1948 with the reconstructing
rosters. But it would seem that if somebody
comes in with an AGO 23, that has got a
5. https://obamawhitehouse.archives.gov/blog/2013/07/09/
recognizing-extraordinary-contribution-filipino-veterans (July 9,
2013).
6. See F ilipino Veterans Equity C ompensation F und:
Examining the Department of Defense and Interagency Process
for Verifying Eligibility, Hearing Before the Subcommittee
on Oversight and Investigations of the Committee on Armed
Services, House of Representatives (June 24, 2014), at 10, 14-15
available at https://www.gpo.gov/fdsys/pkg/CHRG-113hhrg89507/
pdf/CHRG-113hhrg89507.pdf.

9
stamp on it, you know, stamped by the U.S.
Government certifying they have served, that
it should be the document that qualifies the
individual for service. . . .
During a second hearing in the House of Representatives
before the Subcommittee on Disability Assistance and
Memorial Affairs of the Committee on Veterans’ Affairs,
Representative Heck addressed the same issue with VA’s
Brad Flohr, Senior Advisor for Compensation Service at
the Veterans Benefits Administration:7
[Congressman] HECK. Okay. You know, I
would ask then just hypothetically, do you think
it would be unreasonable to believe that in 1948,
in postwar Philippines, after a country has been
ravaged by combat for 4 years, that there could
possibly be somebody who had qualified service
who didn’t make it on the list [of guerrillas
created by the U.S. Army]? Unreasonable to
think that that couldn’t happen?
Mr. FLOHR. Not to me, no.
[Congressman] HECK. . . . [D]o you think
it would be unreasonable . . . to accept an
AGO-23 as proof of service to be able to pay
7. See F ilipino Veterans E quit y C ompensation F und:
Inquiry into the A dequacy of Process in Verifying Eligibility,
Hearing Before the Subcommittee on Disability Assistance and
Memorial Affairs of the Committee on Veterans’ Affairs, House of
Representatives (Nov. 20, 2014), at 11-12, available at https://www.
gpo.gov/fdsys/pkg/CHRG-113hhrg96136/pdf/CHRG-113hhrg96136.
pdf.

10
a claim? Because many of those Filipino vets
that are being denied have an AGO-23, the
Philippine form that has been certified, that
was developed—I mean, this one is stamped
1948. I don’t think we are going to find many
90 to 100-year old Filipino veterans trying to
come in with forged documents. Do you believe
that . . . taking the AGO-23 as proof of service
would be unreasonable? Mr. Flohr?
Mr. FLOHR. I wouldn’t say it would be
unreasonable. . . .
Despite these hearings, the process for making
ser vice determinations—specifically, requiring a
claimant’s name to be found on a reconstructed roster—
was not subsequently changed by VA or the agencies to
which it delegated authority for service determinations,
Army and NARA.
Dela Cruz Was Denied Eligibility for the FVEC Benefit
The Federal Circuit summarized the VA’s rationale
for denying Dela Cruz the FVEC benefit:
. . . To show that he served in the Filipino
guerrillas, Dela Cruz submitted an affidavit
describing his service (the “Form 23 affidavit”),
which he executed at the end of World War II
in front of a U.S. Army captain. . . .
The Department of Veterans Affairs Regional
Office (“RO”) denied Dela Cruz’s claim for
payment because it determined that he did not

11
establish his service. It concluded that none of
the affidavits and supporting documentation
Dela Cruz submitted qualified as documents
of the service department. See 38 C.F.R.
§ 3.203(a). The RO therefore requested the
ser vice department, the A rmy, to verify
Dela Cruz’s service. See id. § 3.203(c). The
Army, in turn, certified “that Mr. Dela Cruz
did not have service as a member of the
Philippine Commonwealth Army, including the
recognized guerillas,” as “he was not listed in
the Reconstructed Guerilla Roster.” Although
the A rmy did have Dela Cruz’s Form 23
affidavit—the affidavit Dela Cruz executed in
front of an Army captain in which he described
his service in the Filipino guerillas—in its own
files, the Army indicated that it was unable to
verify the accuracy of Dela Cruz’s statements
of service and, in any event, was “not able
to accept affidavits to verify service.” After
multiple appeals and remands, the BVA and
Veterans Court affirmed the denial of payment.
The Veterans Court reasoned that the Army
was “not able to verify that Mr. Dela Cruz had
service” and that the service department’s
determination as to service is “conclusive and
binding” on the VA.
Id. at 8a-9a (internal J.A. citations omitted). In sum,
although Army had an affidavit describing Dela Cruz’s
guerrilla service that was executed at the end of the war,
Dela Cruz still was denied the FVEC benefit because his
name was not listed on Army’s reconstructed roster.

12
The Federal Circuit Opinion
At the Federal Circuit, both Dela Cruz and the VA
characterized ARRA § 1002 as remedial legislation. Id.
at 10a-11a. But the Court concluded:
We agree with the government that the remedial
purpose and language of § 1002 do not foreclose
the VA from requiring service department
verification similar to that required under 38
C.F.R. § 3.203(c). . . . The remedial purpose
of ARRA § 1002 cannot overcome its plain
language, which allows the VA to prescribe
what information and evidence is required to
apply for payment from the compensation fund.
. . . To be sure, the Form 23 itself was prepared
by the Army in 1945 before it was executed
by Dela Cruz. In addition, the Form 23
affidavit as executed by Dela Cruz has indicia
of reliability because it was executed under
penalty of military courts-martial through the
then-governing Articles of War. Nevertheless,
in establishing service, the Army treats the
reconstructed roster—not Form 23—as the
“definitive source,” instead using Form 23
primarily as a check for consistency against
the roster. The Army was unable to locate Dela
Cruz’s name on the reconstructed roster, and
thus under its approach was unable to verify
the accuracy of his Form 23 affidavit. The VA’s
decision to treat the roster as the “document
issued by the service department,” 38 C.F.R.
§ 3.203(a)(1), was not arbitrary and capricious.

13
Id. at 11a-12a (internal citations omitted). The Federal
Circuit rejected Dela Cruz’s argument “that the VA should
have made its own determination as to Dela Cruz’s service
and thus his eligibility for payment.” Id. at 9a.
Rather than instructing the VA to accept Dela Cruz’s
Form 23 affidavit as evidence of his service sufficient for
receiving the FVEC benefit, the Court remanded to the
Court of Appeals for Veterans Claims to “hold the case
in abeyance” while Dela Cruz could apply for correction
of Army’s records with the Army Board for Correction of
Military Records (“ABCMR”). 8 Id. at 15a-17a.
8. During oral argument at the Federal Circuit, both Dela
Cruz and the government implored the panel not to send Dela
Cruz (and other Filipino WWII veterans) to ABCMR for potential
correction of service records (e.g., the reconstructed roster) from
WWII. As the government stated, “the Army is not involved in this
appeal” and “the issue before this Court is reviewing the Veteran’s
Court’s decision.” Dela Cruz, v. Wilkie, No. 2018-2101 (Fed. Cir.),
Oral Arg. at 32:09–32:30, http://oralarguments.cafc.uscourts.gov/
default.aspx?fl=2018-2101.mp3. Yet the Panel “conclude[d] that Dela
Cruz’s proper recourse is to challenge the Army’s determination
based on the reconstructed roster before the [Army] Corrections
Board.” App. at 17a. According to the Panel, “the Veterans Court
has exclusive jurisdiction . . . to review relevant decisions from the
[Army] Corrections Board.” Id. at 15a. It does not.
When an applicant is dissatisfied with a decision of ABCMR,
federal district courts have jurisdiction over the dispute pursuant
to the Administrative Procedure Act, 5 U.S.C. §§ 702, 704. Should
Dela Cruz not be satisfied with a decision of ABCMR, he has no
path to the U.S. Court of Appeals for Veterans Claims to resolve
the matter. He would need to file suit in federal district court, such
as in the U.S. District Court for the District of Columbia, then
appeal to the regional circuit court, and then this Court. CAVC
would not intersect the ABCMR decision until it was final.

14
REASONS FOR GRANTING THE PETITION
The Federal Circuit failed not only to properly
account for the “remedial” nature of ARRA § 1002 but
also the pro-veteran canon of statutory construction.
Had it done so, the rigid evidentiary standards applied
by the government in measuring “eligible persons” under
§ 1002(d)—i.e., requiring a claimant’s name to be listed
on a reconstructed roster—would be relaxed. It needs
scarcely to be emphasized that fifty-six percent (56%) of
all claimants have been denied the FVEC benefit. Id. at 4a
n.1. There could be no clearer indicia of problems with the
evidentiary standard than this shockingly high denial rate.
Nowhere in ARRA § 1002 is there any requirement
that the VA give “conclusive weight,” id. at 13a, to a service
determination by the United States Army and NARA
concerning a guerrilla’s active service in the Philippine
Army. See n.2, supra. When the best evidence of a Filipino’s
service is a Form 23 affidavit, that document should be
given weight by VA in administering the FVEC benefit.
VA has perpetuated an unduly narrow, misinterpretation
of the statute, and the Federal Circuit has failed to correct
that very consequential error.
Since W WII, this Court has held that statutes
impacting veterans are “always to be liberally construed”
in their favor. Boone v. Lightner, 319 U.S. 561, 575 (1943).
This is not an outdated concept. Indeed, in reversing the
Federal Circuit in 2011, this Court confirmed that “[w]e
have long applied ‘the canon that provisions for benefits
to members of the Armed Services are to be construed
in the beneficiaries’ favor.’” Henderson v. Shinseki, 562
U.S. 428, 441 (2011) (citations omitted).

15
Not only did the Federal Circuit sidestep longstanding
precedent concerning the interpretation of veteran’s
statutes, the Court failed to meaningfully implement
that precedent. Indeed, the Court’s avoidance of the
pro-veteran canon in this case continues its resistance
to confronting that canon. 9 Resolution of the issue of
whether a veteran’s statute must be interpreted in
favor of its beneficiary—regardless of whether its plain
meaning is apparent or its meaning must be determined
in view of ambiguity—remains vitally important to the
proper interpretation of veteran’s statutes and the proper
handling of claims for veteran’s benefits.
Both Dela Cruz—now 95 years old, having applied
for the FVEC benefit a decade ago—and the government
agree that ARRA § 1002 is remedial. The Federal
Circuit did not disagree, but concluded that “[t]he
remedial purpose of ARRA § 1002 cannot overcome its
plain language, which allows the VA to prescribe what
information and evidence is required to apply for payment
from the compensation fund.” App. at 11a. Yet ARRA
§ 1002(d) sets forth an explicit definition of an “eligible
person” in view of that person’s service “in the organized
military forces of the Government of the Commonwealth of
the Philippines” or in the Philippine Scouts during WWII.
The Federal Circuit ignored that definition, instead
relying on a different provision, see ARRA § 1002(c)(1),
stating that “[t]he application for the claim shall contain
9. See, e.g., Procopio v. Wilkie, 913 F.3d 1371, 1380 (Fed. Cir.
2019) (en banc) (“The parties and amici have differing views on the
role the pro-veteran canon should play . . . Given our conclusion
that the intent of Congress is clear from the text of § 1116—and
that clear intent favors veterans—we have no reason to reach this
issue.” (internal citations omitted)).

16
such information and evidence as the Secretary may
require.” App. at 11a. Nowhere in the application itself
did the VA require the applicant to provide evidence of
Philippine Army service to the satisfaction of the United
States Army pursuant to delegated authority under VA’s
regulation at 38 C.F.R. § 3.203. And nowhere can such an
eligibility standard be found in the definition of an “eligible
person” in ARRA § 1002(d).
Confronted with an explicit definition of an “eligible
person” to receive an FVEC payment, the Federal Circuit
concluded that VA has unfettered authority to interpret
that definition irrespective of any detriment to the
beneficiaries for whom the statute was written:
Had Congress sought to create an exception
in ARRA § 1002 to the VA’s longstanding
regulatory requirement for proving service or
to limit the VA’s authority to prescribe such
regulations, it could have expressly done so—
but it did not.
App. at 12a. That conclusion is completely at odds with this
Court’s command—again in an opinion issued as WWII
came to a close—“to construe the separate provisions of
[a statute] as parts of an organic whole and give each as
liberal a construction for the benefit of the veteran as a
harmonious interplay of the separate provisions permits.”
Fishgold v. Sullivan Drydock & Repair Corp., 328 U.S.
275, 285 (1946). The Federal Circuit completely ignored
that edict of statutory construction.
Requiring those who served in the Philippine Army
during WWII to satisfy the U.S. Army’s standards

17
for authenticating service contradicts “the canon that
provisions for benefits to members of the Armed Services
are to be construed in the beneficiaries’ favor.” King v.
St. Vincent’s Hosp., 502 U.S. 215, 220 n.9 (1991). Here,
the Federal Circuit decision conferred a free pass on the
United States government for having intentionally denied
Filipino WWII veterans access to the ABCMR for about
the last seventy-five (75) years. App. at 13a (“according to
a 1951 Corrections Board memorandum, the Corrections
Board will not even consider applications for correction
submitted by individuals seeking to establish their service
in the Philippine military.”)
Yet the Federal Circuit validated VA’s approach to
authenticating Philippine Army service during WWII by
delegating authority to the United States Army pursuant
to 38 C.F.R. § 3.203 which in turn treats the inclusion of
an individual’s name on a reconstructed roster (created
after the war was over) as the sine qua non of a service
and hence eligibility determination.
The Federal Circuit’s failure to interpret ARRA
§ 1002 in favor of Dela Cruz—and those others whose
service records emanate from their service in the
Philippine Army during WWII—in effect amounts to a
complete abrogation of Boone, Fishgold, and King.
I.

THE FEDERAL CIRCUIT HAS DEPARTED
FROM T HIS COU RT ’ S PRECEDEN T S
CONSTRUING VETERAN’S STATUTES

Boone and its lineage mandate that veteran’s laws are
to be liberally construed in beneficiaries’ favor. In 1943, in
the midst of WWII, this Court held in Boone v. Lightner

18
that “[t]he Soldiers’ and Sailors’ Civil Relief Act is always
to be liberally construed to protect those who have been
obliged to drop their own affairs to take up the burdens of
the nation.” 319 U.S. at 575; see also Le Maistre v. Leffers,
333 U.S. 1, 6 (1948), citing Boone, 319 U.S. at 575 (“the Act
must be read with an eye friendly to those who dropped
their affairs to answer their country’s call”). This Court
has not taken Boone to heart.
Since the Federal Circuit was created, Boone has only
rarely been cited and, even then, in dissenting opinions.
See Kisor v. Shulkin, 880 F.3d 1378, 1381 (Fed. Cir. 2018)
(O’Malley, dissenting) (“The veteran-friendly canon of
construction, which originates in this Court’s World War
II—era expression of solicitude towards those who ‘drop
their own affairs to take up the burdens of the nation,’
carries comparable weight. Indeed, it is difficult to
overstate the importance of the veteran-friendly approach
to veterans’ benefits statutes and their accompanying
regulations.” (internal citations omitted)); Cronin v.
United States, 765 F.3d 1331, 1343 (Fed. Cir. 2014) (Linn,
dissenting-in-part) (noting “the Supreme Court’s repeated
direction for the need to construe the act liberally in favor
of the serviceman”); Henderson v. Shinseki, 589 F.3d 1201,
1233 (Fed. Cir. 2009) (en banc) (Mayer, dissenting), rev’d,
Henderson v. Shinseki, 562 U.S. 428 (2011).
Yet successive opinions from this Court following
Boone solidified and expanded its reach. In 1946, the Court
stated in Fishgold v. Sullivan Drydock & Repair Corp.
that a veteran “who was called to the colors was not to
be penalized.” 328 U.S. 275, 284 (1946). The Court made
two important pronouncements: First, citing Boone, the
Court mandated that “this legislation is to be liberally

19
construed for the benefit of those who left private life to
serve their country in its hour of great need.” Id. at 285.
Second, the Court mandated that “[o]ur problem is to
construe the separate provisions of the Act as parts of
an organic whole and give each as liberal a construction
for the benefit of the veteran as a harmonious interplay
of the separate provisions permits.” Id. That opinion still
finds force today. See Henderson, 562 U.S. at 441; Coffy
v. Republic Steel Corp., 447 U.S. 191, 196 (1980) (citing
Fishgold for the holding that the Vietnam Era Veterans’
Readjustment Assistance Act of 1974 “is to be liberally
construed for the benefit of the returning veteran”);
Alabama Power Co. v. Davis, 431 U.S. 581, 584-85 (1977),
quoting Fishgold, 238 U.S. at 285.
The presumption in favor of veterans was expanded in
King v. St. Vincent’s Hosp. In that case, this Court held
that it “would ultimately read the [statutory] provision
in [the veteran’s] favor under the canon that provisions
for benefits to members of the Armed Services are to be
construed in the beneficiaries’ favor.” 502 U.S. 215, 220
n.9 (1991). Henderson reaffirmed its reach in 2011. 562
U.S. at 441 (citing King for holding that veteran’s law is
“construed in the beneficiaries’ favor” and applying the
canon when the Court could “not find any clear indication”
that a law was meant to be interpreted otherwise).
As for circumstances when a statute is ambiguous
(not argued by the parties), this Court directly addressed
that circumstance in Brown v. Gardner, which cited King
for “the rule that interpretive doubt is to be resolved in
the veteran’s favor.” 513 U.S. 115, 118 (1994), abrogated
in part by statute, Pub. L. No. 104-204, § 422(a), 110 Stat.
2874, 2926-27 (1996).

20
“It is of course true that courts are to construe
remedial statutes liberally to effectuate their purposes.”
Smith v. Brown, 35 F.3d 1516, 1525 (Fed. Cir. 1994)
(citations omitted); see also Cloer v. Sec’y of HHS, 675
F.3d 1358, 1362 (Fed. Cir. 2012) (en banc) (citation omitted)
(“Remedial legislation . . . should be construed in a manner
that effectuates its underlying spirit and purpose.”);
Tcherepnin v. Knight, 389 U.S. 332, 336 (1967) (“we are
guided by the familiar canon of statutory construction
that remedial legislation should be construed broadly to
effectuate its purposes”).
II. T H I S CA SE I S A G O OD V EH IC L E FOR
RESOLVING THE QUESTION PRESENTED
Given the combination of (i) a veteran’s benefit statute
(ARRA § 1002) with (ii) the remedial nature of that statute
and (iii) application of the pro-veteran canon, mandated
by this Court, that such a statute must construed in favor
of its beneficiaries, the Federal Circuit impermissibly
allowed VA to deviate from the express eligibility standard
set in § 1002(d) of the statute through VA’s more restrictive
regulation, 38 C.F.R. § 3.203. VA’s astonishing 56% denial
rate for the FVEC benefit makes this case a particularly
good vehicle for establishing when the pro-veteran canon
of statutory construction must be applied: either always
to veteran’s statutes, or alternatively only sometimes.
The Federal Circuit erred in holding that “VA can
properly rely on the [U.S.] Army’s certification as to [a
Filipino’s WWII] service” in the Philippine Army. App.
at 17a. It is not sufficient to pay lip service to the proveteran’s canon and this Court’s decree that that veteran’s
laws are to be liberally construed in beneficiaries’ favor.

21
The Federal Circuit must observe and give life to that
commitment made to those who served a grateful nation.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
			Respectfully submitted,
Seth A. Watkins
Counsel of Record
Watkins Law & A dvocacy, PLLC
1455 Pennsylvania Avenue, NW,
Suite 400
Washington, DC 20004
(202) 355-9421
watkins@wlapllc.com
Louis S. Mastriani
A dduci, Mastriani
& Schaumberg LLP
1133 Connecticut Avenue, NW
Washington, DC 20036
Of Counsel
Counsel for Petitioner
Date: December 19, 2019

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
federal circuit, filed july 26, 2019
United States Court of Appeals
for the Federal Circuit
2018-2101
EDDIE N. DELA CRUZ,
Claimant-Appellant,
v.
ROBERT WILKIE, SECRETARY
OF VETERANS AFFAIRS,
Respondent-Appellee.
July 26, 2019, Decided
Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-1020,
Judge Coral Wong Pietsch.
Before DYK, REYNA, and WALLACH, Circuit
Judges.
Dyk, Circuit Judge.
Eddie Dela Cruz appeals from the decision of the
Court of Appeals for Veterans Claims (“Veterans Court”)
affirming the denial of his claim for a one-time payment

2a
Appendix A
from the Filipino Veterans Equity Compensation Fund
(“compensation fund”). The Department of Veterans
Affairs (“VA”) denied his claim because the Army certified
that Mr. Dela Cruz did not have service as a member of
the Philippine Commonwealth Army, including recognized
guerillas, as “he was not listed in the Reconstructed
Guerilla Roster” (“reconstructed roster”). J.A. 5.
We hold that the VA can generally rely on the service
department’s determination in deciding eligibility
for payment from the compensation fund. But, in this
context, the VA cannot rely on the service department’s
determination that the veteran is not on the reconstructed
roster without giving the veteran a meaningful opportunity
to challenge his service record. Dela Cruz’s proper
avenue for relief is to seek a correction of his service
record from the Army Board for Correction of Military
Records (“Corrections Board”). The government has
represented that the Corrections Board will consider
such an application. We affirm-in-part and remand to
the Veterans Court to hold the case in abeyance pending
consideration by the Corrections Board.
Background
I
On July 26, 1941, President Franklin D. Roosevelt
issued an Executive Order to “order into the service of the
armed forces of the United States . . . all of the organized
military forces of the Government of the Commonwealth
of the Philippines.” Military Order: Organized Military

3a
Appendix A
Forces of the Government of the Commonwealth of the
Philippines Called Into Service of the Armed Forces of
the United States, 6 Fed. Reg. 3,825, 3,825 (July 26, 1941).
At the time, the Philippines was a territory of the United
States. As a result of the Executive Order, a variety of
Filipino military organizations—the regular Philippine
Scouts, the new Philippine Scouts, the Guerrilla Services,
and more than 100,000 members of the Philippine
Commonwealth Army—served the United States during
World War II. See ARRA § 1002(a)(3).
After the war ended, however, Congress passed
legislation—the First Supplemental Surplus Appropriation
Rescission Act of 1946, 38 U.S.C. § 107(a) and Second
Surplus Appropriation Rescission Act of 1946, 38
U.S.C. § 107(b) (collectively, “the 1946 Rescissions
Acts”)—providing that service in these Filipino military
organizations “shall not be deemed to have been active
military, naval, or air service.” Id. § 107(a), (b) (emphasis
added). As a result, after the passage of this legislation,
Filipino veterans were not eligible for the same benefits
as the United States veterans they served with during
World War II. Instead, the 1946 Rescissions Acts made
them eligible only for certain benefits, often at reduced
rates. See ARRA § 1002(a)(6)-(8) (describing these reduced
benefits).
In 2009, Congress enacted Section 1002 of the
American Recovery and Reinvestment Act of 2009
(“ARRA”), Pub. L. No. 111-5, 123 Stat. 115, 200-02 (2009),
which established a $198 million fund to provide one-time
payments to Filipino veterans who were excluded from full

4a
Appendix A
veterans benefits by the 1946 Rescissions Acts. Compare
ARRA § 1002(d)(1)(A) (defining an “eligible person” for
purposes of receiving the one-time payment) with 38
U.S.C. § 107. The one-time payment is $15,000 for U.S.
citizens and $9,000 for non-citizens. ARRA § 1002(e).
The statute required Filipino veterans to apply for this
payment within one year of the statute’s enactment. Id.
§ 1002(c)(1).
II
Although many Filipino veterans have received
payments under this statute, many have not.1 This is in
part due to the VA’s requirement that the relevant service
department (such as the Army) verify the veteran’s service.
For many decades, the VA has required that all veterans
applying for benefits establish their service in one of two
ways: (1) the veteran can submit a “document issued by
the service department,” 38 C.F.R. § 3.203(a); or (2) the
VA will request “verification of service from the service
department,” id. § 3.203(c). “[T]he VA has long treated
the service department’s decision on such matters as
conclusive and binding on the VA,” regardless of whatever
other evidence documenting service the claimant provides
to the VA. Soria v. Brown, 118 F.3d 747, 749 (Fed. Cir.
1997). In Soria, for example, the claimant applied for the
reduced benefits discussed above based on his service in
1. As of January 1, 2019, the VA has granted 18,983 claims
for payment from the compensation fund and denied 23,772 claims.
See U.S. Dep’t of Veterans Affairs, W WII Filipino Veterans
Equity Compensation (F VEC) Fund, https: // w w w.va .gov/
centerforminorityveterans/fvec.asp (last visited July 24, 2019).

5a
Appendix A
the Philippine Commonwealth Army, but the U.S. Army
refused to certify his service. Id. at 748. The VA denied
benefits based on the Army’s determination. Id. This court
affirmed, explaining that there was “no error” in treating
the service department’s determination as conclusive, and
noting that the proper “recourse lies within the relevant
service department, not the VA.” Id. at 749.
III
As relevant here, for claims based on Philippine
service in World War II, the appropriate “service
department” is the U.S. Army. To verify the service of a
Filipino guerrilla, the Army relies on the reconstructed
roster and treats the roster as authoritative. See Filipino
Veterans Equity Compensation Fund: Examining the
Department of Defense and Interagency Process for
Verifying Eligibility: Hearing Before the Subcomm. on
Oversight and Investigations of the H. Comm. on Armed
Servs., 113th Cong. 9 (2014) [herein-after Oversight
& Investigations Subcomm. Hearing] (Statement of
Scott Levins, Director, Nat’l Personnel Records Ctr.,
Nat’l Archives & Records Admin.) (“[T]he roster is the
definitive source.”). If an individual’s name does not appear
on the reconstructed roster, the Army will refuse to verify
service. 2 Moreover, as explained above, the VA in turn
treats the Army’s determination of service as conclusive
and binding. The result of this is that a Filipino veteran
who does not appear on the reconstructed roster will not
receive payment from the compensation fund.
2. The Army also requires a Form 23 affidavit, such as the one
it had in its files for Dela Cruz, though the affidavit is not sufficient
by itself. See Oversight & Investigations Subcomm. Hearing at 9.

6a
Appendix A
The problem is that the reconstructed roster is not
always accurate. This is the result of the methodology
employed to create the reconstructed roster. According
to a 1949 Army report, many of the original rosters for
Filipino units were lost, destroyed, or tampered with.
See Dela Cruz Op. Br. Addendum at 20-21. After the war
ended, “hundreds of unit rosters were missing,” some
sets of rosters “were being tampered with,” “a number
of guerillas had been processed and paid but no records
existed of their having been recognized,” and “no one
interested agency possessed a complete set of rosters.”
Id. at 20. Thus, the Army embarked on a reconstruction
project to attempt to create one authentic roster of Filipino
guerrillas who served during World War II.
To create the reconstructed roster, the Army first
decided which guerrilla units to include in the roster,
based on information received from the units themselves,
military orders, combat histories of the U.S. units that
fought alongside the Filipino units, and so on. Then, if
the Army decided that a particular guerrilla unit merited
inclusion in the roster, it requested a roster from the
unit commander. If the roster appeared to be free of
anomalies, it was then authenticated for inclusion in the
reconstructed roster. Since completing the reconstructed
roster in 1948, the Army has followed a policy prohibiting
any changes or corrections to the roster. See Oversight
& Investigations Subcomm. Hearing at 3-4 (Statement
of Brigadier Gen. David K. MacEwen, The 59th Adjutant
Gen. of the U.S. Army, Dep’t of the Army); Dela Cruz Op.
Br. Addendum at 1 (1974 Memorandum from Howard H.
Callaway, Secretary of the Army).

7a
Appendix A
Representatives of the VA and the Army have
acknowledged the potential for inaccuracies in the
reconstructed roster at Congressional hearings relating to
payments to Filipino veterans from the compensation fund.
At one hearing, a VA Senior Advisor for Compensation
agreed that it would not be unreasonable to think that
there are eligible individuals who “didn’t make it on the
list,” given that the reconstructed roster was created “in
postwar Philippines, after a country has been ravaged
by combat for 4 years.” Filipino Veterans Equity
Compensation Fund: Inquiry Into the Adequacy of
Process in Verifying Eligibility: Hearing Before the
Subcomm. on Disability Assistance and Mem’l Affairs
of the H. Comm. on Veterans’ Affairs, 113th Cong.
12 (2014) (Statement of Brad Flohr, Senior Advisor
for Compensation, Veterans Benefits Admin., Dep’t
of Veterans’ Affairs). At the same hearing, Brigadier
General MacEwen testified on behalf of the Army he did
not “doubt that there are plenty of people that served
honorably, patriotically” but that may have been excluded
from the roster if it was determined at the time that their
role did not “r[i]se to the level of qualifying service.” Id.
(Statement of Brigadier Gen. David K. MacEwen, The
59th Adjutant Gen. of the U.S. Army, Dep’t of the Army).
Moreover, at a hearing before the House Subcommittee
on Oversight and Investigations to the Committee on
Armed Services, Chairman Heck noted that “it certainly
is possible that individuals who served honorably in a
recognized guerrilla unit may have been omitted from
the reconstructed roster,” such as if the individual simply
“missed the time when the rosters were reconstructed.”
Oversight & Investigations Subcomm. Hearing at 12

8a
Appendix A
(statement of Rep. Joseph J. Heck, Chairman, Subcomm.
on Oversight & Investigations).
IV
Contending that he served in the Filipino guerilla
forces during World War II, Dela Cruz timely applied for
payment from the compensation fund. To show that he
served in the Filipino guerrillas, Dela Cruz submitted an
affidavit describing his service (the “Form 23 affidavit”),
which he executed at the end of World War II in front of a
U.S. Army captain. He also provided a certification from
the Armed Forces of the Philippines, which certified his
service in a Filipino guerrilla unit. In addition, Dela Cruz
submitted affidavits by his brother, his wife, his brotherin-law, and his neighbor (who stated that he served in the
Filipino guerrillas together with Dela Cruz). Notably,
as the Board of Veterans’ Appeals (“BVA”) recognized,
Dela Cruz has been deemed eligible to receive healthcare
from the VA, which requires veteran status, based on an
affidavit from the Philippine Army.
The Department of Veterans Affairs Regional Office
(“RO”) denied Dela Cruz’s claim for payment because
it determined that he did not establish his service. It
concluded that none of the affidavits and supporting
documentation Dela Cruz submitted qualif ied as
documents of the service department. See 38 C.F.R.
§ 3.203(a). The RO therefore requested the service
department, the Army, to verify Dela Cruz’s service. See
id. § 3.203(c). The Army, in turn, certified “that Mr. Dela
Cruz did not have service as a member of the Philippine

9a
Appendix A
Commonwealth Army, including the recognized guerillas,”
as “he was not listed in the Reconstructed Guerilla
Roster.” J.A. 5. Although the Army did have Dela Cruz’s
Form 23 affidavit—the affidavit Dela Cruz executed
in front of an Army captain in which he described his
service in the Filipino guerillas—in its own files, the Army
indicated that it was unable to verify the accuracy of Dela
Cruz’s statements of service and, in any event, was “not
able to accept affidavits to verify service.” J.A. 131. After
multiple appeals and remands, the BVA and Veterans
Court affirmed the denial of payment. The Veterans Court
reasoned that the Army was “not able to verify that Mr.
Dela Cruz had service” and that the service department’s
determination as to service is “conclusive and binding” on
the VA. J.A. 8.
Dela Cruz appeals. We have jurisdiction under 38
U.S.C. § 7292(c). We review legal determinations of the
Veterans Court de novo. Goodman v. Shulkin, 870 F.3d
1383, 1385 (Fed. Cir. 2017).
Discussion
I
At its core, Dela Cruz’s argument is that the VA should
have made its own determination as to Dela Cruz’s service
and thus his eligibility for payment. We rejected a similar
argument in Soria. 118 F.3d at 749. As noted earlier, before
the compensation fund was established, Filipino veterans
were only eligible for reduced benefits. In Soria, a Filipino
veteran applied for these reduced benefits, but the VA

10a
Appendix A
denied his claim because the Army “refused to certify
Mr. Soria’s service.” Id. at 748. We explained that under
38 C.F.R. § 3.203, an applicant for veterans’ benefits must
prove service “with either official documentation issued by
a United States service department or verification of the
claimed service by such a department.” Id. We noted that
“the VA has long treated the service department’s decision
on such matters as conclusive and binding on the VA” and
held that there was “no error in that treatment.” Id. at
749. We further explained that if the service department’s
refusal to verify service is in error, the proper “recourse
lies within the relevant service department, not the
VA.” Id.; see also Go v. Shinseki, 517 F. App’x 941, 942
(Fed. Cir. 2013) (holding that under Soria, the VA may
apply 38 C.F.R. § 3.203(c) to claims for payment from the
compensation fund, and that the applicant’s “avenue for
relief” is to “file a request to ‘correct’ his military service
record” with the service department).
Dela Cruz contends that Soria is distinguishable
because it did not involve benefits under ARRA § 1002.
According to Dela Cruz, § 1002 is remedial legislation
that must be construed broadly to effectuate its purpose.
Further, he argues that limiting payment only to those
Filipino veterans whose service is verified by the
applicable service department under 38 C.F.R. § 3.203(c)
would be inconsistent with the statute because the
statute’s definition of “eligible person” does not include
a requirement of service department verification. 3 The
3. In relevant part, ARRA § 1002(d)(1)(A) defines an “eligible
person” as “any person” who served

11a
Appendix A
government agrees that ARRA § 1002 is remedial
legislation, but responds that even so, requiring service
department verification is consistent with the statute.
We agree with the government that the remedial
purpose and language of § 1002 do not foreclose the VA
from requiring service department verification similar
to that required under 38 C.F.R. § 3.203(c). The statute
expressly provides that an application for payment
“shall contain such information and evidence as the
Secretary may require,” ARRA § 1002(c)(1), and 38
C.F.R. § 3.203 simply specifies the information required
to establish service for all veterans seeking benefits. The
remedial purpose of ARRA § 1002 cannot overcome its
plain language, which allows the VA to prescribe what
information and evidence is required to apply for payment
from the compensation fund. Moreover, the language in
§ 1002 is similar to the general statutory grant of authority
before July 1, 1946, in the organized military forces
of the Government of the Commonwealth of the
Philippines, while such forces were in the service of
the Armed Forces of the United States pursuant to
the military order of the President dated July 26,
1941, including among such military forces organized
guerrilla forces under commanders appointed,
designated, or subsequently recognized by the
Commander in Chief, Southwest Pacific Area, or other
competent authority in the Army of the United States.
This definition is identical to the provision in the 1946 Rescissions
Acts defining who is deemed not to have qualifying service and
therefore cannot obtain the full range of veterans’ benefits. See
38 U.S.C. § 107(a).

12a
Appendix A
to the VA to prescribe “regulations with respect to the
nature and extent of proof and evidence and the method of
taking and furnishing them in order to establish the right
to benefits” administered by the VA. 38 U.S.C. § 501(a)(1).
Had Congress sought to create an exception in ARRA
§ 1002 to the VA’s longstanding regulatory requirement for
proving service or to limit the VA’s authority to prescribe
such regulations, it could have expressly done so—but it
did not.
Dela Cruz also argues that even if the VA is permitted
to require service department verification in the context
of ARRA § 1002, it misapplied that requirement by not
accepting Dela Cruz’s Form 23 affidavit as a “document
issued by the service department.” 38 C.F.R. § 3.203(a)
(1). To be sure, the Form 23 itself was prepared by the
Army in 1945 before it was executed by Dela Cruz. In
addition, the Form 23 affidavit as executed by Dela Cruz
has indicia of reliability because it was executed under
penalty of military courts-martial through the thengoverning Articles of War. Nevertheless, in establishing
service, the Army treats the reconstructed roster—not
Form 23—as the “definitive source,” see Oversight &
Investigations Subcomm. Hearing at 9, instead using
Form 23 primarily as a check for consistency against the
roster, see id. The Army was unable to locate Dela Cruz’s
name on the reconstructed roster, and thus under its
approach was unable to verify the accuracy of his Form
23 affidavit. J.A. 131. The VA’s decision to treat the roster
as the “document issued by the service department,” 38
C.F.R. § 3.203(a)(1), was not arbitrary and capricious. The
Board therefore did not err in not accepting Dela Cruz’s
Form 23 affidavit alone as establishing service.

13a
Appendix A
For the first time, Dela Cruz argues on appeal that
requiring service department verification to receive
payment from the compensation fund violates the Equal
Protection Component of the Due Process Clause of the
Fifth Amendment. Under the circumstances, we decline to
consider this argument which was not raised at any point
in the proceedings below. See Forshey v. Principi, 284
F.3d 1335, 1355-58 (Fed. Cir. 2002) (en banc), superseded
in part by statute on other grounds.
II
Dela Cruz alternatively argues that the VA cannot
give conclusive weight to an Army determination that
relies solely on the reconstructed roster without giving the
veteran a meaningful opportunity to challenge his service
record. However, the VA maintains that the proper remedy
for this lies with Corrections Board, not the VA, because
only the Corrections Board has the “legal authority to
amend or correct an official military record.” Gov’t Br.
at 36. Thus, contends the VA, “a dispute concerning
determinations as to whether a claimant served in the
military is properly directed” to the Corrections Board.
Id. at 37. The applicable statute, 10 U.S.C. § 1552(a)(1),
provides that the Corrections Board, acting on behalf
of the Secretary of the Army, “may correct any military
record” of the Army when “necessary to correct an error
or remove an injustice.” Dela Cruz contends that pursuing
such relief would be futile, because, according to a 1951
Corrections Board memorandum, the Corrections Board
will not even consider applications for correction submitted
by individuals seeking to establish their service in the
Philippine military.

14a
Appendix A
After oral argument, we directed the VA to file
a response “stating the position of the United States
regarding the availability of a remedy from the Army
Board for the Corrections of Military Records to correct
the Reconstructed Guerilla Roster.” Dela Cruz v. United
States, No. 18-2101 (Fed. Cir. May 7, 2019), ECF No. 55.
The VA’s response, which is attached as an Addendum to
this opinion, stated that the VA had
consulted with counsel for the Department of
the Army and counsel for the Army Review
Boards Agency (ARBA), the agency that
oversees and administers the [Corrections
Board]. Counsel for the ARBA has represented
that the board will consider applications filed by
purported Filipino Guerillas claiming military
service during World War II on behalf of the
United States Army, including individuals who
are not currently listed on the Reconstructed
Guerilla Roster.
Gov’t Resp. to Order at 1-2. The VA’s response further
noted that the Corrections Board will only consider such
an application for correction “after the applicant exhausts
all other available administrative remedies, including
requesting verification of military service from the
National Personnel Records Center (NPRC) and the Army
Human Resources Command (AHRC).” Id. at 2. However,
the VA acknowledges that here, Dela Cruz has already
exhausted these remedies, as “[t]he NPRC and AHRC
have already provided responses unfavorable to Mr. Dela
Cruz.” Id. at 3. Thus, “potential relief is available” to Dela

15a
Appendix A
Cruz from the Corrections Board. Id.; see Soria, 118 F.3d
at 749 (“[I]f the United States service department refuses
to verify the applicant’s claimed service, the applicant’s
only recourse lies within the relevant service department,
not the VA.”).
Under the circumstances, Dela Cruz should promptly
file a request with the Corrections Board to have his
service recognized by the Army based on his Form 23
affidavit and other available evidence, such as Philippine
military documents and affidavits by contemporary
witnesses. We expect the Corrections Board will process
the request with appropriate dispatch. If the Corrections
Board provides relief, we assume that the VA will
promptly approve Dela Cruz’s claim for payment from
the compensation fund.
The question remains whether to affirm the denial of
Dela Cruz’s claim or to remand to the Veterans Court. We
conclude that remand is appropriate because the Veterans
Court has exclusive jurisdiction to review a decision by
the Corrections Board if the Board denies relief to Dela
Cruz. A similar issue has arisen in the context of claims
for monetary relief under the Tucker Act, over which the
Claims Court (or its predecessor, the Court of Claims) has
exclusive jurisdiction. In such cases, the Court of Claims
had authority to review relevant decisions by a military
corrections board. See Grieg v. United States, 640 F.2d
1261, 1265-67 (Ct. Cl. 1981); Sanders v. United States,
594 F.2d 804, 812-13 (Ct. Cl. 1979) (en banc), superseded
by statute on other grounds; see also Richey v. United
States, 322 F.3d 1317, 1323 (Fed. Cir. 2003). The Supreme

16a
Appendix A
Court recognized the appropriateness of such review by
the Court of Claims. Chappell v. Wallace, 462 U.S. 296,
303 (1983) (“Board decisions are subject to judicial review
and can be set aside if they are arbitrary, capricious, or
not based on substantial evidence.” (citing Grieg and
Sanders)). That authority now rests with the Claims
Court. See Richey, 322 F.3d at 1323. And if a claimant
files suit in the Claims Court in the first instance, rather
than first going to the Corrections Board, “that court will
require resort to a Corrections Board while the matter
remains pending in that court.” Id.
Here, the situation is similar. Compensation under
ARRA § 1002 is determined only by the Secretary for
Veterans Affairs. An appeal to the Veterans Court is the
exclusive review mechanism for decisions of the Secretary
in the administration of VA benefits. See 38 U.S.C. §§ 511,
7104, 7252; In re Russell, 155 F.3d 1012, 1012-13 (8th Cir.
1998) (per curiam); Beamon v. Brown, 125 F.3d 965,
967-71 (6th Cir. 1997); Larrabee v. Derwinski, 968 F.2d
1497, 1501 (2d Cir. 1992); Vincent v. United States, 731
F. App’x 954, 957 (Fed. Cir. 2018) (explaining that “the
Court of Federal Claims lacks jurisdiction to hear a claim
for benefits under Section 1110 or comparable Title 38
provisions” because such a claim “must proceed through
the statutorily prescribed route of review . . . a route that
runs through the Court of Appeals for Veterans Claims”).
Since the Veterans Court has exclusive jurisdiction to
review the right to compensation under ARRA § 1002
and to review relevant decisions from the Corrections
Board, we remand to the Veterans Court to hold the
case in abeyance pending proceedings at the Corrections

17a
Appendix A
Board—a procedure identical to that followed by the
Claims Court in cases arising under the Tucker Act. See
Richey, 322 F.3d at 1323.
Conclusion
We conclude that the VA can properly rely on the
Army’s certification as to service, but it cannot rely
simply on the Army’s determination that the veteran’s
name does not appear on the reconstructed roster
without giving the veteran a meaningful opportunity to
challenge his service record. Based on the government’s
representation that the Corrections Board will consider
requests for correction by individuals who are not listed
on the reconstructed roster, we conclude that Dela Cruz’s
proper recourse is to challenge the Army’s determination
based on the reconstructed roster before the Corrections
Board. We trust that the Corrections Board will act
promptly on requests by Filipino veterans such as Dela
Cruz, particularly given the long procedural history of
such claims and the fact that most World War II veterans
are now over 90 years old. The case is remanded to the
Veterans Court to hold the case in abeyance pending
consideration by the Corrections Board. The mandate
shall issue forthwith.
AFFIRMED-IN-PART AND REMANDED
Costs
No costs.

18a
Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-2101
EDDIE N. DELA CRUZ,
Claimant-Appellant,
v.
ROBERT WILKIE, Secretary
of Veterans Affairs,
Respondent-Appellee.
RESPONDENT-APPELLEE’S RESPONSE
TO THE COURT’S MAY 7, 2019 ORDER
Respondent-appellee, Robert Wilkie, Secretary of
Veterans Affairs, respectfully submits this response to
the Court’s May 7, 2019 order (ECF No. 55), directing the
Secretary to address the availability of a remedy from the
Army Board for Correction of Military Records (ABCMR
or board) to correct the Reconstructed Guerilla Roster for
applicants who challenge their exclusion from the roster,
which, in part, determines eligibility for payment from
the Filipino Veterans Equity Compensation Fund.
Undersigned counsel has consulted with counsel for
the Department of the Army and counsel for the Army
Review Boards Agency (ARBA), the agency that oversees

19a
Appendix A
and administers the ABCMR. Counsel for the ARBA has
represented that the board will consider applications filed
by purported Filipino Guerillas claiming military service
during World War II on behalf of the United States Army,
including individuals who are not currently listed on the
Reconstructed Guerilla Roster.
Pursuant to 10 U.S.C. § 1552(a)(1), the Secretary of
the Army, acting through the ABCMR, “may correct
any military record of the [Army] when the Secretary
considers it necessary to correct an error or remove an
injustice.” Accordingly, relevant to the Court’s directive,
an individual attempting to establish eligible Philippine
military service, as defined in the American Recovery
and Reinvestment Act of 2009, may file an application and
supporting documents with the ABCMR for consideration.
The ABCMR will consider applications for correction
only after the applicant exhausts all other available
administrative remedies, including requesting verification
of military service from the National Personnel Records
Center (NPRC) and the A rmy Human Resources
Command (AHRC).
The ABCMR review process is the highest level of
administrative appeal and provides the final decision
on behalf of the A rmy. If the ABCMR denies the
requested relief, the applicant may file an application for
reconsideration or seek judicial review. Army Reg. No.
15-185, § 2-15 (rule governing requests for reconsideration);
Chappell v. Wallace, 462 U.S. 296, 303 (1983) (“Board [for
Correction of Military Records] decisions are subject to
judicial review and can be set aside if they are arbitrary,
capricious, or not based on substantial evidence.”).

20a
Appendix A
At this stage, the ABCMR is the only remedy
available to Mr. Dela Cruz to change the status of his
military service. The NPRC and AHRC have already
provided responses unfavorable to Mr. Dela Cruz when
the Department of Veterans Affairs (VA) requested
service verification from those agencies. Appellee Br. 3-4,
ECF No. 38. As we stated in our response brief in this
appeal, VA takes no position on whether Mr. Dela Cruz
would be successful in pursuing relief at the ABCMR,
but potential relief is available. Id. at 36-37. Regardless
of the potential outcome at the ABCMR, this Court is
not the proper forum to resolve Mr. Dela Cruz’s dispute
concerning recognition of his military service. See Soria
v. Brown, 118 F.3d 747, 749 (Fed. Cir. 1997) (“[I]f the
United States service department refuses to verify the
applicant’s claimed service, the applicant’s only recourse
lies within the relevant service department, not the VA.”);
Go v. Shinseki, 517 Fed. Appx 941, 942 (Fed. Cir. 2013)
(concluding that claimant’s “recourse is under 10 U.S.C.
§ 1552, not with this Court”).

21a
Appendix A
Respectfully submitted,
OF COUNSEL:
BRIAN D. GRIFFIN
Deputy Chief Counsel
BRANDON A. JONAS
Attorney
Benefits Law Group
Department of Veterans
Affairs
810 Vermont Ave., NW
Washington, DC 20420

May 23, 2019

JOSEPH H. HUNT
Assistant Attorney General
ROBERT E. KIRSCHMAN,
JR.
Director
/s/ L. Misha Preheim
L. MISHA PREHEIM
Assistant Director
/s/ Jana Moses		
JANA MOSES
Trial Attorney
Commercial Litigation Branch
Civil Division
Department of Justice
1100 L Street, NW
Washington, DC 20530
Tel: (202) 616-2279
Attorneys for RespondentAppellee

22a
B the united
Appendix B —Appendix
order of
states court of appeals for veteranS
claims, dated may 3, 2018
UNITED STATES COURT OF APPEALS
FOR VETERANS CLAIMS
No. 17-1020
EDDIE N. DELA CRUZ,
Appellant,
v.
ROBERT L. WILKIE, M.D., SECRETARY OF
VETERANS AFFAIRS,
Appellee.
Before DAVIS, Chief Judge,
and PIETSCH and ALLEN, Judges.
ORDER
Note: Pursuant to U.S. Vet. App. R. 30(a)
this action may not be cited as precedent.
In a March 16, 2018, memorandum decision, the Court
affirmed the February 7, 2017, decision of the Board of
Veterans’ Appeals that denied entitlement to a one-time
payment from the Filipino Veterans Equity Compensation
Fund. On April 6, 2018, the appellant filed a timely motion

23a
Appendix B
for reconsideration or, in the alternative, a panel decision
pursuant to Rule 35 of the Court’s Rules of Practice and
Procedure. The motion for decision by a panel will be
granted.
Based on review of the pleadings and the record
of proceedings, it is the decision of the panel that the
appellant fails to demonstrate that 1) the single-judge
memorandum decision overlooked or misunderstood a fact
or point of law prejudicial to the outcome of the appeal,
2) there is any conflict with precendential decisions of
the Court, or 3) the appeal otherwise raises an issue
warranting a precedential decision. U.S. Vet. A pp. R. 35(e);
see also Frankel v. Derwinski, 1 Vet.App. 23, 25-26 (1990).
Upon consideration of the foregoing, it is
ORDERED, by the single judge, that the motion for
reconsideration is denied. It is futher
ORDERED, by the panel, that the motion for panel
decision is granted. It is further
ORDERED, by the panel, that the single-judge
decision remains the decision of the Court.
DATED: May 3, 2018		

PER CURIAM.

24a
Appendix C
Appendix C — memorandum
DECISION
of the united states court of appeals
for veterans claims, DATED
MARCH 16, 2018
United States Court of Appeals
for Veterans Claims
No. 17-1020
Eddie N. Dela Cruz,
Appellant,
v.
David J. Shulkin, M.D., Secretary of
Veterans Affairs,
Appellee.
March 16, 2018, Decided
Before PIETSCH, Judge.
MEMORANDUM DECISION
Note: Pursuant to U.S. Vet. App. R. 30(a),
this action may not be cited as precedent.
PIETSCH, Judge: Eddie Dela Cruz appeals pro se
a February 7, 2017, Board of Veterans’ Appeals (Board)
decision that denied entitlement to a one-time payment

25a
Appendix C
from the Filipino Veterans Equity Compensation Fund
(FVECF). This appeal is timely and the Court has
jurisdiction to review the Board’s decision pursuant to
38 U.S.C. §§ 7252(a) and 7266(a). Single-judge disposition
is appropriate as the issue is of “relative simplicity” and
“the outcome is not reasonably debatable.” Frankel v.
Derwinski, 1 Vet.App. 23, 25-26 (1990). For the reasons
that follow, the Court will affirm the February 7, 2017,
Board decision.
I. FACTS
Mr. Dela Cruz sought VA compensation benefits
in June 2001, citing service in the “Philippines Army
Guerillas” from 1943 to 1946. Record (R.) at 1031. In his
application, he stated that he was part of a recognized
guerilla group and later assigned to “D” company, “122
BN, LGAF (F-23).” R. at 1034.
In July 2001, a VA regional office (RO) requested Mr.
Dela Cruz’s service records from the National Archives
and Records Administration (NARA), which responded
that Mr. Dela Cruz was not a member of the Philippine
Commonwealth Army, including the recognized guerillas
in the service of the U.S. Armed Forces. The RO also
requested verification of Mr. Dela Cruz’s service from
the National Personnel Records Center (NPRC). The
NPRC also responded that he did not have service as a
member of the Philippine Commonwealth Army, including
the recognized guerillas in the service of the U.S. Armed
Forces. The RO denied Mr. Dela Cruz’s claim for benefits
based on his lack of eligible service.

26a
Appendix C
Mr. Dela Cruz submitted a letter in November 2006
describing his experience in the recognized guerillas in
the service of the U.S. Armed Forces and his later work
in Guam. In December 2006, the RO again requested
information regarding Mr. Dela Cruz’s service, noting
that he was not listed in the Reconstructed Guerilla
Roster maintained at the Manila, Philippines, RO. The
RO subsequently denied his claim based on his failure to
submit new and material evidence of qualifying service.
In February 2007, Mr. Dela Cruz submitted an
affidavit from Domingo T. Mercado, a former neighbor
who stated that he served in the Philippine guerilla service
with Mr. Dela Cruz. Mr. Mercado stated that Mr. Dela
Cruz served in and was discharged from the guerilla
forces that fought for the U.S. Armed Forces during
World War II.
In April 2009, Mr. Dela Cruz sought a one-time
payment from the FVECF. In October 2009, the RO
again requested information to verify Mr. Dela Cruz’s
service. At that time, the RO provided an additional
name under which Mr. Dela Cruz may have served. In
response to that request, the NPRC again stated that
Mr. Dela Cruz did not have service as a member of the
Philippine Commonwealth Army, including recognized
guerillas in the service of the U.S. Armed Forces. The RO
denied Mr. Dela Cruz entitlement to a one-time payment
from the FVECF, finding that he did not meet service
requirements. After he appealed that decision, the Board
remanded the matter for additional development.

27a
Appendix C
In August 2010, Mr. Dela Cruz submitted another
affidavit from Mr. Mercado stating that Mr. Dela Cruz
was an enlisted guerilla solder from 1942 to 1946. The
RO sent NPRC a new request for verification of service,
accompanied by Mr. Mercado’s affidavit. The NPRC again
responded that Mr. Dela Cruz did not have any verifiable
service as a member of the Philippine Commonwealth
army or recognized guerrilla service.
In December 2014, Mr. Dela Cruz submitted lay
statements from his wife, brother, brother-in-law, and Mr.
Mercado. Each statement indicated that he had served as
a member of the Philippine guerilla service in support of
the U.S. Armed Forces.
The RO requested a verification of Mr. Dela Cruz’s
service from the Army Human Resources Command
(AHRC). In October 2015, the AHRC responded, stating
that it was unable to change the previous negative service
determination. In May 2016, the RO again attempted to
verify Mr. Dela Cruz’s service. The NPRC responded that
his service could not be verified and, thus, there was no
change to the prior negative certification.
On February 7, 2017, the Board issued the decision on
appeal. In that decision, the Board denied entitlement to
a one-time payment from the FVECF. The Board based
its decision on certifications from both the AHRC and
the NPRC that Mr. Dela Cruz did not have service as a
member of the Philippine Commonwealth Army, including
the recognized guerillas in the service of the U.S. Armed
Forces. The Board noted the affidavits and lay statements

28a
Appendix C
of record, but found that these documents were not official
documents of a U.S. service department and were not
sufficient to demonstrate proof of service. Based on the
lack of qualifying service, the Board found that he was
not eligible to receive the one-time payment.
On appeal, Mr. Dela Cruz argues that the Board erred
by failing to adequately consider lay evidence, including
testimony and affidavits, as well as a Philippine veterans
association certificate, his birth certificate, and army
cards that he believes demonstrate that he had qualifying
service. He states that he missed the registration
period for his service and that VA has failed to obtain
records regarding his treatment for malaria. He also
cites to various provisions concerning reasonable doubt,
competency of lay evidence, duty to assist by obtaining
records, and service records as evidence of service.
In response, the Secretary argues that the Court
should affirm the Board’s decision because the Board
properly found that Mr. Dela Cruz did not have qualifying
service and, thus, was not eligible for a payment under
FVECF as a matter of law. The Secretary notes that
the Board considered the lay evidence and affidavits, but
found that these documents were not sufficient to establish
qualifying service.
II. ANALYSIS
A. Matters on Appeal
Initially, the Court notes that, in his brief, Mr. Dela
Cruz states that, in addition to the denial of a one-time

29a
Appendix C
payment from FVECF, he is appealing “[l]egal entitlement
to all privileges, benefits and pensions entitled to [him]
as a U[.]S[.] combat veteran.” Appellant’s Informal Brief
at 4. However, the only issue before the Board in the
decision currently on appeal is entitlement to a one-time
payment under the FVECF. The Court lacks jurisdiction
to consider any issues that were not before the Board. See
38 U.S.C. § 7252(a).
The Court also notes that, after briefing was
completed in this appeal, Mr. Dela Cruz submitted several
photographs purporting to show him at one or more
meetings. However, these photographs were not before
the Board at the time it issued its decision, and the Court
may not consider them. See Timberlake v. Gober, 14 Vet.
App. 122, 133 (2000) (The Court is “precluded by statute
from including in the record on appeal and generally
from considering any material that was not contained
in the ‘record of proceedings before the Secretary and
the Board.’” (quoting 38 U.S.C. § 7252(b))); Rogozinski v.
Derwinski, 1 Vet.App. 19, 20 (1990).
B. Filipino Veterans Equity Compensation Fund
Pursuant to the American Recovery and Reinvestment
Act of 2009, Pub.L. No. 111-5, § 1002, 123 Stat. 115,
Congress established the FVECF and authorized VA
to make one-time payments from the fund to eligible
persons who submitted a claim within the one-year period
beginning on the date of enactment. Section 1002(d)
of the Act defines “eligible person” as any person who
served before July 1, 1946, in the organized military

30a
Appendix C
forces of the Government of the Commonwealth of the
Philippines, including the recognized guerrilla forces,
or in the Philippine Scouts organized under section 14 of
the Armed Forces Voluntary Recruitment Act of 1945, 79
Cong. Ch. 393, 59 Stat. 538, 543.
VA regulations provide that certain types of documents
may be used to establish qualifying service. 38 C.F.R.
§ 3.203(a) (2017). To establish entitlement to benefits,
VA may accept documents submitted by a claimant as
evidence of qualifying service, without verification from
the appropriate service department, if the documents
were issued by a U.S. service department, contain the
needed information, and in VA’s opinion are genuine and
contain accurate information. Id. If, however, the evidence
of service submitted does not meet the requirements of
§ 3.203(a), VA must request verification of service from the
appropriate U.S. service department. 38 C.F.R. § 3.203(c);
see Capellan v. Peake, 539 F.3d 1373, 1380 (Fed. Cir.
2008) (noting that § 3.203(c) requires verification from
the service department whenever a claimant lacks the
kind of official evidence specified in § 3.203(a)). Once the
service department determines whether an individual had
qualifying service, its determination is “conclusive and
binding” on VA. Soria v. Brown, 118 F.3d 747, 749 (Fed.
Cir. 1997); Duro v. Derwinski, 2 Vet.App. 530, 532 (1992).
This rule applies in the context of FVECF claims. See
Tagupa v. McDonald, 27 Vet.App. 95, 100 (2014).
Mr. Dela Cruz argues that the Board erred by failing
to accept the documents that he submitted as proof of
his service, referring to an affidavit for Philippine Army

31a
Appendix C
personnel, affidavits from himself and Mr. Mercado,
written statements, testimony before the Board, a
certificate from the Philippine Scouts and World War II
Association, his birth certificate, and army cards from the
American Legion and Philippine Army. Contrary to his
argument, the Board considered this evidence and found
that it was not sufficient to establish qualifying service.
Specifically, the Board stated that the only evidence in
support of Mr. Dela Cruz’s claim was from individuals
known to him and the Philippine government. Although
Mr. Dela Cruz asks the Court to accept these documents
because they are true, as found by the Board, none
of the submitted documents or testimonies meets the
requirements of § 3.203(a). With respect to his argument
regarding records for his treatment for malaria, it is not
clear how those records would establish qualifying service
pursuant to § 3.203(a).
Instead, the Board noted that, pursuant to § 3.203(c),
VA sought verification of Mr. Dela Cruz’s service from the
relevant service department. Despite multiple requests,
the NPRC and AHRC were not able to verify that Mr.
Dela Cruz had service as a member of the Philippine
Commonwealth Army, including recognized guerillas
in the service of the U.S. Armed Forces. Based on this
evidence, the Board found that he did not have qualifying
service for FVECF purposes and denied his claim.
Although Mr. Dela Cruz cites to various VA regulations,
he does not explain and the Court does not discern how
those regulations would alter the Board’s determination
regarding his service. See Hilkert v. West, 12 Vet.App.
145, 151 (1999) (en banc) (“An appellant bears the burden

32a
Appendix C
of persuasion on appeals to this Court.”), aff’d per curiam,
232 F.3d 908 (Fed. Cir. 2000) (table). Reviewing the Board
decision as a whole, the Court does not find any error
with the Board’s denial of a one-time payment under the
FVECF.
III. CONCLUSION
Upon consideration of the foregoing analysis, the
record of proceedings before the Court, and the parties’
pleadings, the February 7, 2017, Board decision is
AFFIRMED.
DATED: March 16, 2018

33a
D of the board
Appendix D — Appendix
DECISION
of veterans’ appeals, department
of veterans affairs, dated
February 7, 2017
BOARD OF VETERANS’ APPEALS
DEPARTMENT OF VETERANS AFFAIRS
WASHINGTON, DC 20420
IN THE APPEAL OF
EDDIE N. DELACRUZ
DOCKET NO. 10-14 480
DATE FEB 07 2017
On appeal from the Department of Veterans Affairs
Regional Office in Manila, the Republic
of the Philippines
THE ISSUE
Legal entitlement to the one-time payment from the
Filipino Veterans Equity Compensation Fund.
INTRODUCTION
The Appellant alleges that he had World War II
service as a recognized guerilla in the service of the
U.S. Armed Forces for the Far East from October 1942
to February 1946. The Appellant’s status as a veteran is
the issue on appeal. This matter is before the Board of
Veterans’ Appeals (Board) on appeal from a December

34a
Appendix D
2009 decision of the Department of Veterans Affairs
(VA) Regional Office (RO) in Manila, the Republic of
the Philippines. This matter was last before the Board
in December 2014, whereupon it was remanded for
further development. Following the issuance of a June
2016 statement of the case in which the RO continued to
deny the Appellant his status as a Veteran, the case was
returned to the Board for its adjudication.
In February 2013, the Appellant testified at a hearing
at the RO before the undersigned via videoconference. A
transcript of the hearing is of record.
This appeal has been advanced on the Board’s docket
pursuant to 38 C.F.R. § 20.900(c) (2016). 38 U.S.C.A.
§ 7107(a)(2) (West 2014).
FINDING OF FACT
The U.S. Army Human Resources Command has
indicated that the appellant had no service as a member
of the United States Armed Forces.
CONCLUSION OF LAW
The appellant does not have recognized active military
service for the purposes of obtaining the one time payment
from the Philippine Veterans Equity Compensation Fund.
38 U.S.C.A. § 5101(a) (West 2014); American Recovery
and Reinvestment Act, Section 1002, Pub. L. No. 111-5
(Enacted February 17, 2009); 38 C.F.R. § 3.203 (2016).

35a
Appendix D
REASONS AND BASES FOR FINDING
AND CONCLUSION
Duties to Notify and Assist
The Veterans Claims Assistance Act of 2000 (VCAA)
imposes obligations on VA in terms of its duties to notify
and assist claimants in developing claims. When VA
receives a complete or substantially complete application
for benefits, it is required to notify the claimant of any
information, and any medical or lay evidence, that is
necessary to substantiate the claim. 38 U.S.C.A. § 5103(a);
38 C.F.R. § 3.159 (b); Quartuccio v. Principi, 16 Vet. App.
183 (2003). In Pelegrini v. Principi, 18 Vet. App. 112 (2004),
the United States Court of Appeals for Veterans Claims
(Court) held that VA must (1) inform the claimant of any
information and evidence not of record that is necessary
to substantiate the claim; (2) inform the claimant about
the information and evidence that VA will seek to provide;
and (3) inform the claimant about the information and
evidence the claimant is expected to provide.
VA’s duties to assist and notify have been considered
in this case. However, as it is the law, and not the facts,
that is dispositive of the appeal, the duties to notify
and assist imposed by the VCAA are not for application
in this case. See Mason v. Principi, 16 Vet. App. 129,
132 (2002). The enactment of the VCAA does not affect
matters on appeal from the Board on questions limited
to statutory interpretation. See Dela Cruz v. Principi,
15 Vet. App. 143, 149 (2001). Because qualifying service
and how it may be established are outlined in statute and

36a
Appendix D
regulation, and because service department certification
of service is binding on VA, the Board’s review is limited
to interpreting the pertinent law and regulations.
In this case, the law is dispositive, and basic
entitlement to the one time payment from the Philippine
Veterans Equity Compensation Fund for nonserviceconnected pension benefits is precluded based upon the
appellant’s lack of qualifying service; accordingly, legal
entitlement to the one time payment from the Philippine
Veterans Equity Compensation Fund must be denied.
Sabonis v. Brown, 6 Vet. App. 426 (1994).
Pertinent Law and Regulations
Under the American Recovery and Reinvestment
Act, the new one time benefit is provided for certain
Philippine Veterans to be paid from the “Filipino Veterans
Equity Compensation Fund.” American Recovery and
Reinvestment Act Section 1002, Pub. L. 111-5 (Enacted
February 17, 2009). Payment for eligible persons will
be either in the amount of $9,000 for non-United States
citizens, or $ 15,000 for United States citizens.
For eligible persons to accept payment from the
Filipino Equity Compensation Fund, such payment “shall
constitute a complete release of any claim against the
United States for reason of [such] service ... “ However,
nothing in this Act “prohibits a person from receiving any
benefit (including health care, survivor, or burial benefits),
which the Veteran would have been eligible to receive
based on laws in effect as of the day before the date of the
enactment of this Act.”

37a
Appendix D
Section 1002(d) provides that an eligible person is
any person who (1) served- (A) before January 1, 1946
in the organized military forces of the Government of
the Commonwealth of the Philippines, while such forces
were in the service of the Armed Forces of the United
States pursuant to the military order of the President
dated July 26, 1941, including among such military forces
organized guerrilla forces under commanders who were
appointed, designated, or subsequently recognized by the
Commander in Chief, Southwest Pacific Area, or other
competent authority in the Army of the United States; or
(B) in the Philippine Scouts under Section 14 of the Armed
Forces Voluntary Recruitment Act of 1945 (59 Stat. 538);
and (2) was discharged or released from service described
in paragraph (1) under conditions other than dishonorable.
Section 1002(j)(2) of the law also provides that VA will
administer its provisions in a manner consistent with VA
law including the definitions of 38 U.S.C.A. § 101 except
to the extent otherwise provided in the statute.
Analysis
The record reflects that the RO requested verification
of the appellant’s service from the National Personnel
Records Center (NPRC) on multiple occasions. In
November 2001, April 2002, July 2002, December 2006,
and November 2009, the National Personnel Records
Center, a component of the appropriate United States
service department, reported that the appellant had no
service as a member of the Philippine Commonwealth
Army, including the recognized guerrillas, in the service
of the United States Armed Forces under the names:

38a
Appendix D
Eddie Nerpio Dela Cruz and Leonido Nerpio Dela Cruz.
Another request for verification was made to the NPRC
in August 2011 with additional evidence regarding the
military unit the appellant alleges he served in during
World War II. In a September 2011 correspondence, the
NPRC replied that even with this additional information
it was still not able to locate any records to substantiate
the appellant’s claims of recognized service.
Distinct from its attempts to verify the appellant’s
service with the NPRC, in July 2010 the RO requested
records from the Guam Benefits Office, VA Guam
Community Based Outpatient Clinic, Guam Vet Center,
and the VA Health Eligibility Center. In response to
the RO’s requests, the Director of the Health Eligibility
Center submitted a letter in November 2010 stating
that the appellant is assigned to the priority group 5
for VA healthcare purposes. The letter further noted
that a request had been forwarded to the Enrollment
Coordinator of the VA Medical Center in Honolulu, Hawaii.
A December 2010 letter from the Enrollment
Coordinator states that an application for enrollment
was received in January 2007 and that the appellant
has been actively enrolled with the Guam Community
Based Outpatient Clinic. The letter further stated that
the documentation requested, documents used to verify
eligibility for healthcare, was not available for disclosure
at the time as, effective July 2008, all records had been
secured off site for electronic scanning. The letter
provided dates of service of November 1943 to February
1946 with an honorable discharge.

39a
Appendix D
Nonetheless, of record are the medical treatment
records from the Guam VA Community Based Outpatient
Clinic containing a September 2006 application for
healthcare benefits, a VA Form 10-10EZ, a certificate of
naturalization from the United States, and an affidavit
for Philippine Army Personnel. It appears these were the
documents used to determine the appellant’s healthcare
eligibility.
In support of his claim, the appellant submitted an
affidavit from D.M., a fellow servicemember, wherein he
states that the two served in the guerillas in 1942 and
were discharged in 1946. The affidavit further states that
they served in the same company “H” Co 2nd Bn 121st Inf
USAFIPNL. He finally stated that the appellant had not
processed his papers as one of the World War II veterans.
The appellant has fur ther submitted several
statements from his family members regarding his
service. In an affidavit, his brother J.N.D.C. states that
the appellant joined the Philippine Guerillas in 1942. More
recently, in statement dated in December 2014 statement,
both an A.C.C. and a B.M.C.D.C, the appellant’s brotherin-law and spouse. respectively, asserted that they met
the appellant in 1954 while he was living in Guam and
that he had consistently maintained that he served with
the American military in World War II prior to moving
to Guam in 1947.
At the February 2013 videoconference hearing
the appellant testified that he served in the Philippine
Guerillas and that he, unfortunately, had not filed the

40a
Appendix D
paperwork needed to be recognized as a World War II
veteran. He further testified that he believed that he
should be recognized as a veteran since he had been
deemed eligible to receive healthcare from the VA.
Pursuant to the Board’s December 2014 remand,
the Board requested that the U.S. A rmy Human
Resources Command (AHRC) undertake a new review
of the available evidence and make a determination as to
whether the appellant’s service could be verified. In an
October 2015 correspondence, the ARHC indicated that
the claims file contains an AGO Form 23 which shows
that the Veteran was assigned to D Company, 122nd
Battalion Luzon Guerrilla Army forces (LGAF). A review
of military archives did not show any documentation of a
122nd Battalion, LGAF, but the AHRC did find a listing
for a 122nd Squadron, LGAF; however, reviewing the unit
roster for the squadron did not show that the appellant’s
name was listed. Accordingly, the AHRC stated that it
could not accept the affidavits to verify the appellant’s
service.
In addition to requesting that the AHRC attempt to
verify the appellant’s service, the RO once again contacted
the NPRC and asked that it attempt to verify the
appellant’s service. According to the NPRC. it reviewed
the roster for the appellant’s unit provided on VA Form
21-3101 and the index files for Guerrilla service and could
not verify the appellant’s service.
The Board has carefully reviewed the appellant’s
evidentiary submissions. However, the Board finds that

41a
Appendix D
these documents fail to satisfy the requirements of 38
C.F.R. § 3.303 as essential proof of service. as they are not
official documents of the appropriate United States service
department, but rather documents from the Philippine
Government and individuals known to the appellant. As
such, those documents may not be accepted by the Board
as verification of service for the purpose of determining
eligibility for VA benefits, including the one time payment
from the Filipino Veterans Equity Compensation Fund.
The AHRC has submitted documentation of its own
thorough review of the available evidence demonstrating
that there is not sufficient support that the appellant
actually served in the 122nd Squadron as he has asserted.
The Board is not free to ignore the certification of the
AHRC. This certification is binding on VA such that VA
has no authority to change or amend the finding. Duro v.
Derwinski, 2 Vet. App. 530, 532 (1992). The proper course
for the appellant is to pursue his disagreement with his
Service Department. See Sarmiento v. Brown. 7 Vet.
App. 80, 85 (1994). VA is bound to follow the certifications
by the Service Departments with jurisdiction of United
States military records.
In addition, the NPRC has certified that the
appellant had no service as a member of the Philippine
Commonwealth Anny, including the recognized guerrillas
in the service of the United States Armed Forces.
Recognition of service by the Philippine Government is
not sufficient for benefits administered by VA. Again,
the Board is not entitled to ignore the certification of the
NPRC.

42a
Appendix D
Regarding the appellant’s eligibility for VA healthcare,
the Board finds that this does not prove his status as
a veteran. The record reflects that his eligibility for
healthcare was not based on a finding of veteran status
by the NPRC, but rather, was based on the affidavit
from the Philippine Army, the appellant’s citizenship,
and his financial status. While these documents may be
sufficient to prove entitlement to VA healthcare, they are
not sufficient to establish eligibility to a one time payment
from the Filipino Veterans Equity Compensation Fund.
Based upon the record in this case, the appellant had
no service as a member of the Philippine Commonwealth
Army, including the recognized guerrillas, in the service
of the United States Armed Forces. The appellant may
not, therefore, be considered a veteran for the purpose
of establishing entitlement to the one-time payment
from the Filipino Veterans Equity Compensation Fund.
Accordingly, the claim is denied as a matter of law. Sabonis
v. Brown. 6 Vet. App. 426 (1994)
ORDER
Legal entitlement to the onetime payment from the
Filipina Veterans Equity Compensation Fund is denied.
/s/				
A.C. MACKENZIE
Veterans Law Judge, Board of
Veterans’ Appeals

43a
Appendix
E
Appendix E — ORDER
DENYING
REHEARING
BY the UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
SEPTEMBER 20, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
EDDIE N. DELA CRUZ,
Claimant-Appellant
v.
ROBERT WILKIE, SECRETARY
OF VETERANS AFFAIRS,
Respondent-Appellee
2018-2101
Appeal from the United States Court of Appeals
for Veterans Claims in No. 17-1020, Judge Coral Wong
Pietsch.
ON MOTION
Before Dyk, Reyna, and Wallach, Circuit Judges.
Per Curiam.

44a
Appendix E
ORDER
Appellant Eddie N. Dela Cruz filed a motion to recall
the mandate.
It Is Ordered That:
The motion to recall the mandate is denied because
the court has concluded that the combined petition for
rehearing and rehearing en banc lacks merit. Dela
Cruz’s remedy is before the Army Board for Correction
of Military Records, a remedy which he should promptly
exercise if he wishes to secure the claimed compensation.
Accordingly, Dela Cruz’s petition is denied as moot.
For the Court
September 20, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

45a
Appendix F Recovery and
Appendix F — American
Reinvestment Act of 2009 § 1002
PUBLIC LAW 111–5—FEB. 17, 2009
A dministrative Provision
Sec. 1002. Payments to Eligible Persons Who Served
in the United States A rmed Forces in the Far East
During World War II. (a) Findings.—Congress makes
the following findings:
(1) The Philippine islands became a United States
possession in 1898 when they were ceded from Spain
following the Spanish-American War.
(2) During World War II, Filipinos served in a variety
of units, some of which came under the direct control
of the United States Armed Forces.
(3) The regular Philippine Scouts, the new Philippine
Scouts, the Guerrilla Services, and more than 100,000
members of the Philippine Commonwealth Army were
called into the service of the United States Armed
Forces of the Far East on July 26, 1941, by an executive
order of President Franklin D. Roosevelt.
(4) Even after hostilities had ceased, wartime service
of the new Philippine Scouts continued as a matter
of law until the end of 1946, and the force gradually
disbanded and was disestablished in 1950.
(5) Filipino veterans who were granted benefits prior
to the enactment of the so-called Rescissions Acts

46a
Appendix F
of 1946 (Public Laws 79–301 and 79–391) currently
receive full benefits under laws administered by the
Secretary of Veterans Affairs, but under section 107
of title 38, United States Code, the service of certain
other Filipino veterans is deemed not to be active
service for purposes of such laws.
(6) These other Filipino veterans only receive certain
benefits under title 38, United States Code, and,
depending on where they legally reside, are paid such
benefit amounts at reduced rates.
(7) The benefits such veterans receive include serviceconnected compensation benefits paid under chapter 11
of title 38, United States Code, dependency indemnity
compensation survivor benefits paid under chapter
13 of title 38, United States Code, and burial benefits
under chapters 23 and 24 of title 38, United States
Code, and such benefits are paid to beneficiaries at
the rate of $0.50 per dollar authorized, unless they
lawfully reside in the United States.
(8) Dependents’ educational assistance under chapter
35 of title 38, United States Code, is also payable for
the dependents of such veterans at the rate of $0.50
per dollar authorized, regardless of the veterans’
residency.
(b) Compensation Fund.—
(1) In General.—There is in the general fund of the
Treasury a fund to be known as the ‘‘Filipino Veterans

47a
Appendix F
Equity Compensation Fund’’ (in this section referred
to as the ‘‘compensation fund’’).
(2) Availability of Funds.—Subject to the availability
of appropriations for such purpose, amounts in the fund
shall be available to the Secretary of Veterans Affairs
without fiscal year limitation to make payments to
eligible persons in accordance with this section.
(c) Payments.—
(1) In General.—The Secretary may make a payment
from the compensation fund to an eligible person who,
during the one-year period beginning on the date of the
enactment of this Act, submits to the Secretary a claim
for benefits under this section. The application for the
claim shall contain such information and evidence as
the Secretary may require.
(2) Payment to Surviving Spouse.—If an eligible
person who has filed a claim for benefits under this
section dies before payment is made under this section,
the payment under this section shall be made instead
to the surviving spouse, if any, of the eligible person.
(d) Eligible Persons.—An eligible person is any person
who—
(1) served—
(A) before July 1, 1946, in the organized military
forces of the Government of the Commonwealth of

48a
Appendix F
the Philippines, while such forces were in the service
of the Armed Forces of the United States pursuant
to the military order of the President dated July
26, 1941, including among such military forces
organized guerrilla forces under commanders
appointed, designated, or subsequently recognized
by the Commander in Chief, Southwest Pacific
Area, or other competent authority in the Army
of the United States; or
(B) in the Philippine Scouts under section 14 of the
Armed Forces Voluntary Recruitment Act of 1945
(59 Stat. 538); and
(2) was discharged or released from service described in
paragraph (1) under conditions other than dishonorable.
(e) Payment A mounts.—Each payment under this section
shall be—
(1) in the case of an eligible person who is not a citizen
of the United States, in the amount of $9,000; and
(2) in the case of an eligible person who is a citizen of
the United States, in the amount of $15,000.
(f) Limitation.—The Secretary may not make more than
one payment under this section for each eligible person
described in subsection (d).
(g) Clarification of T reatment of Payments Under
Certain Laws.—Amounts paid to a person under this
section—

49a
Appendix F
(1) shall be treated for purposes of the internal revenue
laws of the United States as damages for human
suffering; and
(2) shall not be included in income or resources for
purposes of determining—
(A) eligibility of an individual to receive benefits
described in section 3803(c)(2)(C) of title 31, United
States Code, or the amount of such benefits;
(B) eligibility of an individual to receive benefits
under title VIII of the Social Security Act, or the
amount of such benefits; or
(C) eligibility of an individual for, or the amount
of benefits under, any other Federal or federally
assisted program.
(h) Release.—
(1) In General.—Except as provided in paragraph
(2), the acceptance by an eligible person or surviving
spouse, as applicable, of a payment under this section
shall be final, and shall constitute a complete release
of any claim against the United States by reason of
any service described in subsection (d).
(2) Payment of Prior Eligibility Status.—Nothing
in this section shall prohibit a person from receiving
any benefit (including health care, survivor, or burial
benefits) which the person would have been eligible to

50a
Appendix F
receive based on laws in effect as of the day before the
date of the enactment of this Act.
(i) Recognition of Service.—The service of a person as
described in subsection (d) is hereby recognized as active
military service in the Armed Forces for purposes of, and
to the extent provided in, this section.
(j) A dministration.—
(1) The Secretary shall promptly issue application
forms and instructions to ensure the prompt and
efficient administration of the provisions of this section.
(2) The Secretary shall administer the provisions of
this section in a manner consistent with applicable
provisions of title 38, United States Code, and other
provisions of law, and shall apply the definitions in
section 101 of such title in the administration of such
provisions, except to the extent otherwise provided
in this section.
(k) Reports.—The Secretary shall include, in documents
submitted to Congress by the Secretary in support
of the President’s budget for each fiscal year, detailed
information on the operation of the compensation fund,
including the number of applicants, the number of
eligible persons receiving benefits, the amounts paid out
of the compensation fund, and the administration of the
compensation fund for the most recent fiscal year for which
such data is available.

51a
Appendix F
(l) Authorization of A ppropriation.—There is authorized
to be appropriated to the compensation fund $198,000,000,
to remain available until expended, to make payments
under this section.

